Annual Report, “Federal Information Security Management Act: Fiscal Year 2009 Report
from the Office of Inspector General” (IG-10-001, November 10, 2009)

This annual report, submitted as a memorandum from the Inspector General to the NASA
Administrator, provides the Office of Management and Budget (OMB) with our
independent assessment of NASA’s information technology (IT) security posture. For
FY 2009, our audit included a review of 24 non-national security Agency systems and
5 non-national security external systems. Our sample included systems from all
10 NASA Centers, NASA Headquarters, and the NASA Shared Services Center.

Based on our review of the 29 systems, we reported NASA’s compliance with FISMA
and Agency privacy management requirements. Overall, the Agency complies with
requirements, although there is room for improvement.

Our report to OMB cited general compliance with system certification and accreditation
requirements. However, we identified internal control weaknesses related to the
POA&M process, operating system configuration management, security controls testing,
and contingency plan testing. In addition, we found that oversight for external systems
could be improved.

We also evaluated Agency compliance with Privacy Act requirements and determined
that policies, procedures, and internal controls were in place to adequately protect
employees’ personally identifiable information (PII).

OMB’s FY 2009 Report to Congress on the Implementation of The Federal Information
Security Management Act of 2002 includes information from our report. However, as an
“Intra-Agency Memorandum,” our report is considered exempt from release under the
Freedom of Information Act (FOIA); it also contains NASA Information
Technology/Internal Systems Data that is not routinely released under FOIA. To submit
a FOIA request, see the online guide.
